1
No.
IN THE
SUPREME COURT OF THE UNITED
STATES

♦

A.S. a 9-year old child with Autism Spectrum
Disorder (ASD) entitled to Special Education and
Related services per IDEA represented by his
parents R.S. Pro se and E.S. Pro se
Plaintiffs-Petitioners

Board of Education Shenendehowa Central
School District,
Interim Commissioner Betty Rosa, of The
University of the State of New York
Defendants-Respondents

♦

On Writ of Certiorari
To the U.S. Court of Appeals for the 2nd
Circuit

♦
CERTIFICATE OF SERVICE
I certify that I served this 1. PETITION FOR A WRIT
OF CERTIORARI, 2. APPENDIX 3.
ACCOMPANYING AFFIDAVITS 4. THE
CERTIFICATE OF COMPLIANCE to the following

NOV 5 2020
26PRPtoOEFCT,!)-15Ri--t7s

2

parties by sending the documents to them via Fed Ex
on Monday November 2, 2020.
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Susan T. Johns, Esq.
P: (315) 437-7600
Ferrara Fiorenza, PC
5010 Campuswood Dr.
East Syracuse, NY 13057
Attorney for the Shenendehowa Central School
District
Michael G. McCartin
P (518) 776-2620
Assistant Attorney General
The Capitol
Albany, NY 12224-0341
Attorney for Betty Rosa, Commissioner of the NYSED
Respectfully Submitted on Monday, November 2,

